<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Homeland Security for inclusion in the record. 
The submitted materials relate to the fiscal year 2013 budget 
request for programs within the subcommittee's jurisdiction.]

   Prepared Statement of Airports Council International-North America

    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee, thank you for the opportunity to provide the views of 
airport operators on the Department of Homeland Security's (DHS) travel 
programs. As the president of Airports Council International-North 
America (ACI-NA), I am submitting this testimony today on behalf of the 
local, regional, and State governing bodies that own and operate 
commercial service airports in the United States and Canada. ACI-NA 
member airports enplane more than 95 percent of the domestic and 
virtually all the international airline passenger and cargo traffic in 
North America. More than 350 aviation-related businesses are also 
members of ACI-NA.
    Madam Chairman, we commend you for holding this important hearing. 
Each day, airports work to implement measures to streamline the process 
for our passengers. To this end, airports partner with the 
Transportation Security Administration (TSA), U.S. Customs and Border 
Protection (CBP), and airlines to develop and maintain a comprehensive, 
layered security system that efficiently processes passengers.

           RISK-BASED SECURITY AND TRUSTED TRAVELER PROGRAMS

    We must continue to shift from a rigid process of screening for bad 
things to a system that draws upon the vast amount of available data to 
focus the most invasive security processes on travelers who have not 
been previously vetted. A risk-based system is absolutely what is 
needed and TSA should be applauded for its initiative to implement 
several risk-based security initiatives involving pilots, passengers 
and cargo.
    ACI-NA fully supports the TSA PreCheck (Pre3<SUP>TM</SUP>) Known 
Traveler program. From a practical perspective, this risk-based program 
harnesses available data--voluntarily provided by passengers--and 
intelligence information to serve as an indicator to guide the 
application of screening resources. The most invasive screening 
technologies and resources are applied to individuals about whom the 
least is known. It not only reduces traveler frustration by providing a 
certain level of predictability--while including an essential random 
security element--but also streamlines the process today and allows for 
the development of a sustainable system in the future.
    ACI-NA also strongly supports the U.S. Customs and Border 
Protection's (CBP) successful risk-based international trusted traveler 
programs which allows prescreened, pre-approved air passengers to use 
dedicated lanes and kiosks: Global Entry at certain U.S. airports and 
Canadian preclearance airports and NEXUS, which is a joint program 
between CBP and the Canada Border Services Agency for U.S. and Canadian 
citizens and legal permanent residents entering Canada at Canadian 
preclearance airports. These risk-based international trusted traveler 
programs provide the dual benefit of enhancing both security and 
processing efficiency, since travelers do not have to spend time 
filling out paper declaration forms. In addition, participating 
travelers do not have to wait in line or visit CBP officers, thus 
allowing officers to focus on other, less well-known travelers. We 
encourage the subcommittee to support CBP in its effort to deploy 
kiosks to additional airport locations and to increase the number of 
enrollees in these programs, thus enhancing facilitation and security 
for all participating passengers. CBP should fast track its efforts to 
make the registration Web site (Global Online Enrollment System) more 
user-friendly, so that individuals are not discouraged from joining 
these valuable trusted traveler programs.
    According to recent CBP testimony, Global Entry has reduced average 
wait times for enrollees by more than 70 percent. This program will be 
crucial in helping to leverage limited CBP staff resources at airports 
during peak travel times, when passenger demand increases 
significantly, often resulting in long wait times and missed flight 
connections. Efforts to promote the United States as a travel and 
tourism destination including improved visa processing is likely to 
further exacerbate the strain on limited CBP staffing. Expanding Global 
Entry to additional airports and airport terminals will make the 
program available to even more travelers and thus promote increased 
enrollment, benefiting all passengers, the aviation industry, and CBP. 
In order to further enhance security and streamline the process, CBP 
should place Global Entry kiosks at all Canadian preclearance airports. 
In addition, we encourage CBP to intensify its work with foreign 
governments to conclude and implement agreements whereby properly 
vetted foreign citizens can enroll in Global Entry and, where 
permissible, allow U.S. citizens to enroll in their trusted traveler 
programs.
    In developing their Known Traveler program Pre3<SUP>TM</SUP>, TSA 
strategically partnered with CBP to allow members of existing 
international trusted traveler programs, Global Entry, SENTRI, and 
NEXUS, to participate. As TSA looks at expanding the population of 
eligible participants in Pre3<SUP>TM</SUP>, ACI-NA encourages TSA to 
utilize Global Entry as the primary enrollment platform. This has the 
potential to further enhance the security of Pre3<SUP>TM</SUP> while 
also improving passenger facilitation through increased Global Entry 
participation. The ability for Global Entry members to participate in 
Pre3<SUP>TM</SUP> has already resulted in an increase in Global Entry 
enrollments and provides the added benefit of reduced line waits for 
international passengers being cleared by CBP officers at U.S. and 
Canadian airports. The partnership between TSA and CBP will be 
essential in expanding current, and developing new, programs which 
utilize available data to better focus limited screening resources.
    Going forward, ACI-NA recommends:
  --Dedicated queuing lines for Pre3<SUP>TM</SUP>-eligible passengers;
  --Allowing Global Entry, NEXUS, SENTRI members, and other known 
        travelers flying on any participating airline to utilize 
        Pre3<SUP>TM</SUP>; and
  --Allowing Canadian citizens who are NEXUS card holders to 
        participate in Pre3<SUP>TM</SUP>.
    Although screening checkpoints and Federal Inspection Services 
(FIS) facilities may have to be reconfigured somewhat, these risk-based 
programs will help mitigate the need for ongoing facility modifications 
to accommodate the deployment of screening technology.

                        PLANNING FOR THE FUTURE

    We need to begin planning for the future today, designing a 
sustainable aviation system capable of efficiently and effectively 
processing passengers and baggage. With limited resources, risk-based 
programs are essential, and we simply cannot continue the process of 
adding security layer after security layer and installing more 
screening technology at airports after each new threat. Technology will 
always be an essential element of the aviation security system but most 
airport security checkpoints do not have space to accommodate the 
deployment of additional technology, so its application needs to be 
informed by Known Traveler programs.
    There are opportunities to further expand the level of data sharing 
between TSA and CBP. TSA screens checked baggage and could readily 
provide images to CBP so that arriving international passengers 
connecting to another domestic or international airport would not have 
to reclaim their checked baggage. Eliminating this requirement would 
free up TSA resources to focus on other areas.

                               CONCLUSION

    Although there are aspects of the current aviation system that are 
effective, there are others which need to evolve to keep pace with the 
projected increase in the number of passengers and volume of cargo in 
the United States and abroad. The expansion of risk-based trusted 
traveler and known-shipper programs that leverage available data and 
focus limited screening resources on those travelers and cargo about 
which the least is known are essential in ensuring the long-term 
sustainability of the aviation system. Such programs allow the United 
States and other governments the ability to prioritize threats and make 
adjustments to the security posture based upon credible intelligence 
information, provide expedited processing for low-risk travelers while 
helping to ensure that limited resources are appropriately focused and 
allocated. A priority should be placed on deploying the technology 
necessary to support the enrollment of travelers and the expedited 
processing of previously vetted, low-risk passengers.
    Through continued collaboration--both government to government and 
government to industry--to expand trusted traveler programs and other 
security initiatives, we can better achieve our mutual goals of 
enhancing safety, security, and processing efficiency while minimizing 
unnecessary operational impacts.
    Thank you for the opportunity to submit this written testimony.
                                        Gregory Principato,
                                                         President.
                                 ______
                                 
  Prepared Statement of the American Public Transportation Association

                              INTRODUCTION

    Madam Chairman and members of the subcommittee, thank you for this 
opportunity to submit written testimony on the fiscal year 2013 funding 
needs for public transportation security programs within the Department 
of Homeland Security. The American Public Transportation Association 
(APTA) urges Congress to significantly increase appropriations for 
transportation security programs. Past appropriations have not come 
close to the levels authorized under the Implementing Recommendations 
of the 9/11 Commission Act of 2007 (Public Law 110-53). In 2011, 
Americans took 10.4 billion trips on public transportation which was 
the second highest annual ridership since 1957. Only ridership in 2008, 
when gas rose to more than $4 a gallon, surpassed last year's rider 
totals. As transit ridership continues to grow, its security needs do 
also.

                               ABOUT APTA

    The American Public Transportation Association (APTA) is a 
nonprofit, international association of nearly 1,500 public and private 
member organizations, including transit systems and commuter, intercity 
and high-speed rail operators; planning, design, construction, and 
finance firms; product and service providers; academic institutions; 
transit associations and State departments of transportation. APTA 
members serve the public interest by providing safe, efficient, and 
economical public transportation services and products. More than 90 
percent of the people using public transportation in the United States 
and Canada are served by APTA member systems. Additionally, in 
accordance with the National Infrastructure Protection Plan, APTA has 
been tasked by Department of Homeland Security to administer the on-
going activities of the Mass Transit Sector Coordinating Council.

          GREATER INVESTMENTS IN TRANSIT SECURITY ARE REQUIRED

    In 2010, an APTA survey of its transit agency members found 
security investment needs in excess of $6.4 billion nationwide. These 
are funds that our agencies simply do not have, as overall funding 
constraints have led to service cuts, personnel layoffs, and fare 
increases. This stated need contrasts the recent trend in cuts to 
transit security grant programs. We are very concerned about the recent 
decline in transit security funding where, in fiscal year 2012, we see 
an allocation of $87 million for transit security. This level is 
woefully short of the industry's capital security needs. As recently as 
fiscal year 2009, Federal funding for transit security was set at 
nearly $400 million. I urge Congress to acknowledge the risk that our 
citizens and transit systems continue to face, and restore 
appropriations for the Transit Security Grant Program (TSGP) in this 
and subsequent appropriation bills. Historically, Congress has 
permitted the Department of Homeland Security to allocate appropriated 
grant funding without specific directive. We recommend that this 
subcommittee, in its appropriating capacity, guide DHS regarding 
particular program funding allocations to ensure that public 
transportation security program needs adequately addressed. Our systems 
need the certainty of adequate funding to properly plan and implement 
large capital, surveillance, and other security projects to protect our 
systems. While there is no indication that our collective security 
concerns have diminished and the backlog of needed projects continues 
to grow, Federal security grant funds have declined precipitously.

         TRANSIT SECURITY NEEDS ARE REAL AND REQUIRE ATTENTION

    As we and others have stated many times before, and as the members 
of this subcommittee well know, authoritative sources have acknowledged 
that the risk to public transportation systems is real, and it has not 
diminished:
  --The GAO released a 2002 report stating ``about one-third of 
        terrorist attacks worldwide target transportation systems, and 
        transit systems are the mode most commonly attacked.''
  --In 2007, the GAO reported to Congress that ``the characteristics of 
        some passenger rail systems--high ridership, expensive 
        infrastructure, economic importance, and location (e.g., large 
        metropolitan areas or tourist destinations)--make them 
        attractive targets for terrorists because of the potential for 
        mass casualties and economic damage and disruption.''
  --On February 29, 2008, the Office of Intelligence of the 
        Transportation Security Administration (TSA) released a report 
        concluding that public transportation in America remains 
        vulnerable to terrorist attack. The report states: ``The volume 
        of previous attacks and recent plotting against mass transit 
        systems overseas demonstrates continued strong terrorist 
        interest in targeting this sector.'' The report further states 
        that: ``Previous rail attacks in Madrid, London, and Mumbai 
        could inspire terrorists to conduct similar attacks in the 
        United States.''
  --On September 30, 2009, the Honorable Michael E. Leiter, Director, 
        National Counterterrorism Center (NCTC) testified in the Senate 
        that ``al-Qa`ida continues to pursue plans for Homeland attacks 
        and is likely focusing on prominent political, economic, and 
        infrastructure targets designed to produce mass casualties, 
        visually dramatic destruction, significant economic 
        aftershocks, and/or fear among the population. The group also 
        likely remains interested in targeting mass transit systems, 
        and other public venues, viewed as relatively soft targets as 
        evidenced by past al-Qa`ida attacks in London.''
  --The federally funded and chartered, independent Mineta 
        Transportation Institute (MTI) has collected data on worldwide 
        terror incidents and found more than 2,000 separate attacks on 
        surface transportation--1,223 involving bombs and 
        incendiaries--since 1970. These attacks caused 6,190 deaths and 
        approximately 19,000 injuries.
    This history calls for continued vigilance and continued 
investments in surface transportation security.

                    SECURITY GRANT PROGRAM STRUCTURE

    In fiscal year 2012, program changes were made in the Transit 
Security Grant Program and additional, significant, changes are 
proposed in fiscal year 2013. APTA acknowledges that there are some 
sound goals and positive policy provisions represented by these 
changes, including:
  --Peer Review.--APTA and its members already have a system in place 
        for conducting peer reviews--we look forward to working with 
        the Federal Emergency Management Agency (FEMA) to develop such 
        a program.
  --Multi-year Grant Guidance.--APTA supports the approach of a multi-
        year grant guidance--previously, the TSGP guidance changed 
        nearly every year, and APTA believes this to be one of the 
        reasons that have contributed to delays in grant performance 
        and drawdown.
    Notwithstanding these improvements to the current program, there 
are several other program changes that cause us concern and which we 
believe could thwart the progress many grantee agencies have made to 
improve the security of their systems in recent years.

Program Consolidation
    The National Preparedness Grant Program (NPGP) proposes to 
consolidate all grant programs previously categorized as preparedness 
grants into one comprehensive grant program. This is a drastic change 
that eliminates the standalone TSGP--the exclusive pool of funding for 
our Nation's public transportation systems. While this new program may 
be designed to meet the needs of the emergency management community and 
to more closely align with policy represented in the National 
Preparedness Goal, emergency preparedness and core capabilities are 
only subsets of the policy that the Transit Security Grant Program was 
intended to advance. As previously stated, transit systems and their 
assets remain high-risk terrorist targets, and investments in hardening 
and other capital security improvements specific to transit agencies do 
not appropriately fall within this broader emergency preparedness 
policy. APTA calls on Congress to authorize and preserve a sufficiently 
funded, segregated grant program for public transportation security as 
envisioned in the 9/11 Commission Act. We applaud the work of this 
subcommittee, as it recommended a separate Public Transportation 
Security Assistance grant program within the Department of Homeland 
Security fiscal year 2012 appropriations subcommittee report; we hope 
that the subcommittee will recommend the same in fiscal year 2013.

Reduced Grant Performance Period
    Of additional concern is the new 24-month period of grant 
performance for all projects proposed in the fiscal year 2012 TSGP 
Guidance, which is further contained in the proposal for the fiscal 
year 2013 NPGP. This is a reduction from the previous 3-5-year 
allowable expenditure period. APTA certainly appreciates the concerns 
regarding unexpended security grant dollars and is committed to working 
with transit agencies to carry out important security projects in a 
timely fashion. However, it is important to recognize that capital 
projects (security-related or otherwise) require multiple years to 
complete, and a reduction in the time allotted to expend funding would 
preclude many much needed capital infrastructure security projects from 
being pursued and instead compel most grant recipients to apply for 
equipment and operational grants. This is not in the best interest of 
fortifying our systems against attacks, as the majority of the security 
needs identified in the 2010 APTA member survey relate to capital 
projects. APTA recommends maintaining the 3-year expenditure window 
with the opportunity to receive 6-month extensions up to a maximum of 5 
years.

Emphasis on Operational Projects and the Top Transit Asset List
    Similarly, the fiscal year 2012 TSGP and fiscal year 2013 NPGP 
place a high emphasis on operational activities and operational 
packages (OPacks). Congress has previously set a clear priority for 
transit security capital investments when enacting the National Transit 
Systems Security Act of 2007 (title 14 of the 9/11 Commission Act). 
Additionally, the fiscal year 2012 grant guidance states that this 
year's funding priorities will be based on a pre-designated ``top 
transit asset list'' or TTAL. APTA has testified previously that 
security investment decisions should be risk-based, which is the 
underlying approach of the TTAL. However, across the entire transit 
industry, thousands of assets are not listed on the TTAL and, thus, 
would not be eligible to receive funding. While this narrower funding 
approach is based on tighter fiscal circumstances and the total Federal 
dollars available for security grants, it is also indicative of the 
inadequacy of current funding levels. The proposed approach will 
preclude important security improvements from receiving funding 
consideration. APTA recommends reauthorizing the public transportation 
security assistance provisions of the 9/11 Commission Act, and urges 
Congress to work to make adequate funding available for the program to 
meet national needs.

Inability To Directly Apply for Funding
    Finally, under the proposal, while transit agencies would be 
eligible for security funding, they would be required to apply for 
funding through their State Administrative Agency (SAA), and compete in 
this process with other State security priorities. This is a shift from 
the current program, where transit agencies are authorized to be direct 
applicants for and direct recipients of grant funds. We believe that 
under this new proposal sufficient funding would not consistently get 
to transit agencies, and in many cases the involvement of the SAA has 
the potential to slow the already lengthy grant performance process. 
Congress has repeatedly endorsed the position that transit agencies 
should be direct Federal grant recipients, as they have been through 
the Federal Transit Administration, and we urge Congress to continue 
this policy.

                               CONCLUSION

    Madam Chairman, I thank the subcommittee for this opportunity to 
share our views on these critical homeland security issues. There is no 
greater priority for public transportation systems than the safety and 
security of our passengers and workers. I urge you not to wait for the 
``wake-up'' call of an attack on our systems to provide transit 
agencies the support they need. Transit systems across the country 
continue to stand ready, committed, and vigilant in utilizing available 
resources efficiently to protect our systems and our riders. We urge 
you to sustain the critical partnership between transit agencies, 
Congress, and the Department of Homeland Security that helps to keep 
our Nation safe and moving toward economic prosperity.
                                 ______
                                 
                 Prepared Statement of American Rivers

    On behalf of our members and supporters across the Nation, I write 
to express our concerns regarding the Federal Emergency Management 
Agency's (FEMA) proposed fiscal year 2013 budget. Specifically, we are 
concerned about the decreased funding levels for flood hazard mapping, 
the elimination of the Pre-Disaster Mitigation (PDM) program and 
funding for flood mitigation programs under the National Flood 
Insurance Program (NFIP).
    American Rivers is the leading conservation organization standing 
up for healthy rivers so communities can thrive. Rivers provide 
multiple benefits to people and our economy but when floods happen they 
put communities at risk. As we have seen over the past few years, 
floods are becoming more frequent and more severe. In 2011 alone, there 
were 58 Federal flood disaster declarations in 33 different States. The 
combined flood damages from these events are estimated at over $8 
billion and caused 113 deaths--both figures exceed 30-year averages. We 
support several of FEMA's programs that help communities to mitigate 
flood damages before they occur.

                          FLOOD HAZARD MAPPING

    The reduction in flood mapping funds from $220 million in 2010 to 
$89 million proposed in 2013 hinders the communication of flood hazard 
risk to Americans nationwide. Flood hazard mapping is critical to all 
sectors of society and across the Nation. These maps provide valuable 
information to local public officials who are working to keep the 
public safe and to the citizens themselves who want to protect their 
families and keep them out of harm's way. In fiscal year 2012, the 
flood hazard mapping program sustained a 34-percent cut. While we 
understand these are hard fiscal times, investing in flood hazard 
mapping is a sound and important use of taxpayers' money. At a minimum, 
we recommend maintaining the fiscal year 2012 level of $97 million for 
fiscal year 2013.

                        PRE-DISASTER MITIGATION

    The Pre-Disaster Mitigation program is the sister program to the 
Hazard Mitigation program as it provides funding to communities before 
a disaster hits. It is less expensive to prepare for a flood than it is 
to rebuild over and over. When communities and homeowners take steps to 
protect themselves and to reduce the impacts of flooding through 
mitigation practices such as elevating or flood-proofing their homes, 
moving out of harm's way, and investing in ``natural defenses'' they 
can save themselves and taxpayers money. Flood mitigation practices 
that reduce the loss of life and damages to properties provide $5 in 
benefits for every $1 invested.\1\ We recommend funding the PDM to 
fiscal year 2012 levels of $35.5 million in fiscal year 2013.
---------------------------------------------------------------------------
    \1\ Rose, A. et al. 2007. Benefit-Cost Analysis of FEMA Hazard 
Mitigation Grants. Natural Hazards Review 8, 97.
---------------------------------------------------------------------------
       MITIGATION GRANTS OF THE NATIONAL FLOOD INSURANCE PROGRAM

    We applaud the administration for the proposed investment of $120 
million in flood mitigation programs under the NFIP. The financial 
impacts of floods and natural disasters make it clear that our Nation 
cannot afford to continue subsidizing development in places that are 
unsafe and it must be more strategic in response and recovery efforts 
to incorporate long-term sustainability and resilience when allocating 
resources. We support the administration's proposed fiscal year 2013 
funding of $120 million for the flood mitigation programs of the NFIP.
    We appreciate your leadership in safeguarding the American people 
from natural and unnatural hazards. As we continue to witness record 
breaking flooding, we are hopeful that the resources are in place to 
support public officials and communities alike in becoming more 
resilient to the next flood. We look forward to working with you to 
protect communities and the rivers they depend upon.
                                        James Bradley, Sr.,
                                  Director of Government Relations.
                                 ______
                                 
      Prepared Statement of the Arctic Slope Regional Corporation
                                                       May 9, 2012.
Hon. Mary L. Landrieu, 
Chairman, Subcommittee on the Department of Homeland Security,
Washington, DC.
Hon. Daniel Coats, 
Ranking Member, Subcommittee on the Department of Homeland Security,
Washington, DC.

Re: Comments From Arctic Slope Regional Corporation, Hearing on U.S. 
        Coast Guard Fiscal Year 2012 (Fiscal Year 2013) Budget Request
    Dear Chairman Landrieu and Ranking Member Coats: The Arctic Slope 
Regional Corporation (ASRC) is pleased to submit written comments for 
the record in connection with the May 9, 2012, hearing of the Committee 
on Appropriations subcommittee on Homeland Security on the important 
topic of the U.S. Coast Guard fiscal year 2013 budget request.
    ASRC is an Inupiat-owned Alaska Native regional corporation, formed 
pursuant to the Alaska Native Claims Settlement Act, 43 U.S.C. section 
1601, et seq. (ANCSA), that represents the interests of the Inupiat 
Eskimos of the Arctic Slope, with more than 11,000 shareholders. ASRC's 
congressionally mandated mission is to invest in its land base and 
business interests to provide for the well-being of our Inupiat Eskimo 
shareholders. ASRC owns approximately 5 million acres of land on the 
North Slope, including both surface and subsurface estate.
    The Honorable Senator Murkowski submitted a letter to the 
subcommittee on February 15, 2012, requesting a hearing on the Coast 
Guard's fiscal year 2013 budget request, and we thank you for honoring 
that request.
    The issue of ensuring that the Coast Guard has adequate resources 
and infrastructure in the Arctic region is critical, especially as 
there is increased interest in and use of resources in the region. We 
would like to highlight some issues of which we believe the 
subcommittee should be aware, from the perspective of an ANCSA 
corporation and our Alaska Native shareholders.
    From our observations, ``open water season'' is getting longer each 
year as sea ice melts, offering new prospects for resource exploration 
and development, tourist vessel transit, and shipping routes (both 
point-to-point transit and international) that may reshape the global 
transport system. In addition, there are significantly more 
international and domestic scientific and research activities in the 
region, driven in part by the potential for exploration and development 
of Arctic natural resources.
    This increased activity, which greatly impacts the North Slope 
region and our shareholders, also inevitably leads to more and longer 
periods of high activity, with the attendant concerns about the ability 
of the Coast Guard to ensure safety and security during these periods 
of high vessel activity. We also have concerns with respect to the 
potential impacts of high vessel activity on our seasonal subsistence 
activities and the ability of the Coast Guard to bring resources to 
bear when needed, and in a timely manner.
    In order to carry out its missions, the Coast Guard must have 
sufficient operational resources, strategically placed to respond to 
activity in the Beaufort and Chukchi Seas, and along the North Slope of 
Alaska. Air and sea logistical assets, communications infrastructure, 
access to icebreakers and facilities for support vessels, as well as 
management and security resources all will be required along our 
northern coastline. It is also critical that the location(s) of 
infrastructure and support facilities are selected appropriately. We 
believe that it is more appropriate to look to site support and 
resources at various places across the coastline, dictated by the 
local/regional needs and purposes, than to try to identify a single 
point where all such resources would be located.
    The polar regions that were previously the domain of vessel owners 
and operators are now being staked in a global race to energy 
resources. The fiscal year 2013 budget request helps the Coast Guard 
address its mission requirements, including its mission to safeguard 
the United States interests in the Arctic. It is imperative to the 
Arctic, the State of Alaska, and the United States to ensure that the 
Coast Guard has the financial resources and infrastructure to 
effectively carry out its mission. Supporting the Coast Guard in the 
Arctic must be a top priority because both United States and 
international development will take place in our own backyard. Our open 
coastline is at the frontlines of increased marine traffic and 
exploration and development activity.
    The United States is an Arctic nation. Alaska's strategic location 
provides the United States with the opportunity to become the world 
leader with regard to Arctic management, as our waters and resources 
are being promoted on the global stage. The United States must be 
poised to lead in that role. On the international stage, Arctic and 
non-Arctic nations alike are such as China, Norway, Japan, Russia, and 
Italy, in agreement with Russia, are positioning their countries for 
success with respect to Arctic resources and access to global markets. 
What the Arctic will be in 20 or 30 years is, and will continue to be, 
a critical issue for Alaska, the United States, and the world. Now is 
the time to begin planning for the long term, which necessarily 
includes ensuring a right-sized and strategically placed Coast Guard 
presence.
    Thank you for your time and consideration of this very important 
matter.
            Sincerely,
                                           Tara M. Sweeney,
                           Senior Vice President, External Affairs.
                                 ______
                                 
  Prepared Statement of the Association of State Floodplain Managers, 
                                  Inc.

   FEDERAL EMERGENCY MANAGEMENT AGENCY'S HAZARD MITIGATION AND RISK 
                        IDENTIFICATION PROGRAMS

    The Association of State Floodplain Managers (ASFPM)\1\ welcomes 
the opportunity to comment on the fiscal year 2013 budget request for 
the Federal Emergency Management Agency. Specifically, our testimony 
will focus on the proposed budgets for flood risk mapping ($89.3 
million), for Pre-Disaster Mitigation (PDM) ($0), for mitigation 
programs of the National Flood Insurance Program ($120 million) and for 
a new National Preparedness Grant Program (NPGP) ($1.5 billion).
---------------------------------------------------------------------------
    \1\ ASFPM and its 33 chapters represent over 14,000 State and local 
officials and other flood risk professionals--Web site: [http://
www.floods.org].
---------------------------------------------------------------------------
    The fiscal year 2013 FEMA budget request is a mixed bag for hazard 
mitigation programs, including additional significant cuts to flood 
mapping, elimination of FEMA's only all hazards Pre-Disaster Mitigation 
program, but increases in grants for some flood mitigation programs. 
Overall, however, the budget reflects a continued downward trend in the 
focus on hazard mitigation programs.
    Natural disasters in 2011 were record setting, with 14 events in 
the United States estimated to have caused over $1 billion in damage. 
Four of those were flood events only and others involved significant 
flooding. This is the continuance of a trend of increased damages 
caused by flooding that has been occurring for over a decade. Flood 
damages have jumped from $6 billion per year in the 1990s to nearly $10 
billion per year in the 2000s. Unfortunately the trend has been moving 
away from investment in hazard mitigation programs that assist 
communities to become more resilient following disasters.

Flood Hazard Mapping
    Flood hazard mapping is the foundational piece of hazard 
mitigation. Not only does it provide data for hazard mitigation plans 
and projects but it also provides data for the general public to 
understand flood risks, and information for the implementation of local 
land use requirements and building codes. With the changing nature of 
flood risks and the significant backlog of needed mapping (Some areas 
of the country still have flood maps over 30 years old and some have 
never been mapped and/or lack engineering data.), the reduction in 
flood mapping funds from $220 million in 2010 to $89 million proposed 
in 2013 will only delay our identification and understanding of the 
risk faced by many Americans. Furthermore, there are demands by the 
public and Congress that flood mapping be made more accurate especially 
in areas protected by levees. FEMA's ambitious new flood mapping 
program, Risk MAP may now be significantly less effective should the 
mapping program support not be restored to prior levels of $200 million 
or more.
    While the Association of State Floodplain Managers acknowledges all 
budgets in the Federal Government will likely be reduced to some 
extent, the disproportionate reduction in flood mapping funds makes 
little sense for a hazard that is the most frequent and one of the most 
costly in the United States. Mapping should be funded at earlier levels 
because communities need these maps to know where their risks are so 
they can take action to mitigate their risks, and thereby reduce the 
national risk.

Elimination of Pre-Disaster Mitigation
    Even more perplexing is the proposed elimination of the Pre-
Disaster Mitigation (PDM) program. This program has resulted in 
numerous successes such as over 18,000 communities having developed and 
adopted hazard mitigation plans and all-hazard ``sticks and bricks'' 
mitigation projects being implemented that have permanently reduced 
future risk by getting existing, at-risk development out of harm's way. 
It has allowed States who didn't have frequent disasters to tap into 
hazard mitigation resources to reduce their risks too. PDM is the pre-
disaster complement to the more well-known Hazard Mitigation Grant 
Program (HMGP) that is triggered only after a Federal disaster 
declaration.
    Many States have relied on PDM to support development and 
maintenance of hazard mitigation plans, so ASFPM is very concerned 
about the effect of the elimination of PDM on hazard mitigation 
planning. Approximately 20 percent of PDM funds have been used to 
support the hazard mitigation plans required by the Disaster Mitigation 
Act of 2000. These plans are required for eligibility for post-disaster 
mitigation assistance and are key to effective expenditure of 
mitigation funds. Lack of support for mitigation planning is a major 
concern, especially when it is unclear where future funds will come 
from to support communities and States in updating mitigation plans.
    PDM, which provides resources before an event happens as opposed to 
afterwards, is widely considered to be a successful program despite 
acknowledged problems with timely obligation of funds. ASFPM recommends 
that the administration could and should look to models which would 
delegate the program to States to ensure obligation of funds will 
happen much more quickly. Studies have shown that investments in FEMA's 
hazard mitigation programs yield on average $4 in benefits for every $1 
invested. For flood disasters, the ratio is $5 in benefits for every $1 
invested. Also, these programs are cost shared with States and 
communities ensuring that they, too, are investing in their future 
resilience from hazards. ASFPM recommends retention of the program at 
least at the minimal fiscal year 2012 funding level of $35.5 million.

Creation of new NPGP
    ASFPM also cautions the administration to thoughtfully proceed with 
the creation of a large multi-purpose grant program which folds 
together 16 grant programs ranging in focus from terrorism preparedness 
to natural hazard mitigation. Inclusion of mitigation as an eligible 
activity is the rationale for elimination of PDM. However, the 
``vision'' document for this program clearly shows priorities are 
focused on funding activities that are not mitigation, and under the 
proposed framework mitigation priorities will, in reality, be all but 
impossible to fund. Ultimately the National Preparedness Grant Program 
(NPGP) and National Preparedness Goal are aimed at readiness, not 
mitigation. While mitigation is a component of readiness (as it is a 
component of response and recovery) readiness is not a substitute for 
mitigation.
    ASFPM recommends that implementation of a new NPGP be delayed to 
allow for consultation with stakeholder groups. As presently 
envisioned, the program is likely to result in neglect of key functions 
of mitigation and resilience.

Increase in Funding for Mitigation Grants of the National Flood 
        Insurance Program
    ASFPM is very pleased that the administration has proposed 
increasing its investment in flood mitigation programs under the NFIP--
from a funding level of $60 million in fiscal year 2012 to proposed 
fiscal year 2013 funding of $120 million. These programs are largely, 
but not entirely, focused on properties which file repetitive flood 
loss claims. ASFPM notes that the budget assumes a streamlining of the 
Flood Mitigation Assistance Grants, the Severe Repetitive Loss program 
and the Repetitive Flood Claims program to achieve greater 
efficiencies. The greater commitment to elimination of repetitive loss 
properties from the National Flood Insurance Program is important to 
the NFIP's financial integrity.
                                           Larry A. Larson,
                                                Executive Director.
                                 ______
                                 
          Prepared Statement of the Fleet Reserve Association

                              INTRODUCTION

    Madame Chairman and distinguished members of the subcommittee, the 
Fleet Reserve Association (FRA) appreciates the opportunity to present 
its recommendations on the United States Coast Guard's fiscal year 2013 
budget.
    Prior to addressing these issues, FRA wishes to thank the Congress 
for the generous pay, healthcare, and benefit enhancements enacted in 
recent years. Improved wounded warrior transition and support services 
are very important as are other benefit improvements which are 
essential to maintaining the all-volunteer force and military 
readiness.
    Ensuring Coast Guard funding parity with Department of Defense 
(DOD) personnel programs remains a high priority for FRA, and the 
association notes continuing challenges within the Coast Guard to 
adequately fund previously authorized Active and Reserve people 
programs. FRA is also deeply concerned about the impact of 
``sequestration'' (automatic cuts) mandated by the 2011 Budget Control 
Act on Coast Guard programs effective January 2013 unless Congress 
intervenes.
    It's also important to note that FRA believes that military service 
is unlike any other career or occupation, and requires servicemembers' 
compensation commensurate with the demands of service plus a robust 
benefits package and retirement system. In addition, FRA fully concurs 
with Admiral Robert Papp's State of the Coast Guard comment that, ``The 
Coast Guard's value to the Nation has never been greater.''

                       COAST GUARD AUTHORIZATION

    FRA appreciates the enactment of the fiscal year 2011 Coast Guard 
Authorization Act (H.R. 3617) in the 111th Congress that addresses 
several important personnel-related issues. The association supports 
the Coast Guard Authorization Act (S. 1665), sponsored by Senator Mark 
Begich, Chairman of the Senate Oceans, Atmosphere, Fisheries and Coast 
Guard Subcommittee, that among its other provisions increases Coast 
Guard end strength to 49,350. This bill was approved by the Senate 
Commerce, Science and Transportation Committee and placed on the Senate 
legislative calendar.
    FRA also supports the Coast Guard and Maritime Transportation Act 
(H.R. 2838) sponsored by Rep. Frank A. LoBiondo, Chairman of the Coast 
Guard and Maritime Transportation Subcommittee. That legislation 
extends the U.S. Coast Guard Authorization through fiscal year 2014 and 
authorizes $8.6 billion for fiscal year 2013, and $8.7 billion for 
fiscal year 2014. The bill passed the House last year and is awaiting 
action in the Senate Commerce, Science and Transportation Committee.
    Provisions of the bill would establish greater parity with DOD for 
the Coast Guard and its personnel. During consideration of the bill, 
the House Transportation and Infrastructure Committee noted that 
Active, Reserve, and retired members of the Coast Guard and their 
dependents do not always receive the same benefits available to members 
of the other armed services. The legislation also mandates that the 
Commandant submit a report to Congress on servicemember housing. FRA 
strongly supports timely enactment of Coast Guard authorization 
legislation in each Congress and believes the legislation is 
fundamental to effective congressional budgeting and effective 
oversight of the service and its wide ranging and challenging missions.

                               HEALTHCARE

    The FRA strongly supports adequate funding for the Coast Guard 
Health Care Fund (HCF) in order to meet readiness needs, fully fund 
TRICARE, and improve access for all beneficiaries regardless of age, 
status, or location. FRA opposes the administration's proposed retiree 
TRICARE fee hikes commencing in 2013. Just last year, the National 
Defense Authorization Act (H.R. 1540) authorized a TRICARE Prime fee 
increase of 13 percent for military retirees and future adjustments are 
pegged to the Consumer Price Index (CPI) so as to not erode retired 
pay.
    Healthcare benefits are important to every segment of FRA's 
membership. The continued growth in healthcare costs is not just a 
military challenge but a challenge for the entire country. FRA believes 
that military service is a unique profession and notes minimal 
projected savings associated with DOD management efficiencies and other 
initiatives in fiscal year 2013 and beyond, while retirees are targeted 
for major fee hikes.
    Our members are also very concerned about a proposed new TRICARE-
for-Life (TFL) enrollment fee beginning in fiscal year 2013. This is 
viewed as another failure to honor commitments to those who served past 
careers in the military. These personnel pay Medicare part B premiums 
and many have not benefited from the significant pay and benefit 
enhancements enacted since 2000.
    Due to the unique range of geographic locations to which they are 
assigned, Coast Guard personnel and their families often struggle to 
find medical providers who accept TRICARE beneficiaries. While 
implementation of TRICARE Prime Remote alleviated some of these 
problems, costs associated with the TRICARE Standard benefit, and low 
reimbursement rates can make finding a healthcare provider an 
especially daunting task in many areas. And, Coast Guard personnel who 
choose to receive care at DOD military treatment facilities (MTFs) may 
be required to travel long distances for care. FRA is committed to 
helping address these challenges in order to improve healthcare access 
for all Coast Guard personnel, particularly those stationed in remote 
locations.

                              PAY INCREASE

    It's appropriate that the Coast Guard and other Armed Forces are 
excluded from the multi-year pay freeze for Federal employees announced 
by President Obama on November 29, 2010. The association strongly 
supports the proposed 1.7 percent military pay increase for 2013, based 
on Employment Cost Index (ECI) data. Congress has in recent years 
improved military compensation that, in turn, enhanced the recruitment 
and retention of quality personnel in an all-volunteer environment, 
improved retention, morale, and readiness. More than 50 percent of the 
uniformed services community is married and adequate compensation helps 
relieve stress associated with demanding operational tempos.
    FRA consistently supports pay increases that are at least equal to 
the ECI to keep pace with civilian pay. FRA urges the subcommittee to 
ensure adequate appropriations to fund the pay increase in the Coast 
Guard's budget, plus other benefit enhancements that may be authorized 
by the respective Armed Services Committees.

                                HOUSING

    The Coast Guard currently owns 4,013 family homes, at an average 
age of 40+ years, with an extensive maintenance and recapitalization 
project backlog. These costs are compounding and funds are not 
available to keep pace with essential maintenance and replacement 
requirements. FRA supports authorization and funding of Coast Guard 
initiatives to address this situation and to improve family housing. 
DOD privatized approximately 85 percent of its homes using public-
private venture (PPV) authorities, however, the Coast Guard is unable 
to leverage the same equity due to no authorization and inadequate 
resources to do so. The result is that over 12,000 Coast Guard members 
and their families are living in aged, substandard housing that are 
expensive to maintain and have recurring and costly maintenance issues.
    The vast majority of Coast Guard personnel and their families use 
private housing and collect basic allowance for housing (BAH) usually 
based on different types of housing than the one in which they choose 
to live. (FRA supports reform of DOD housing standards that inequitably 
depress BAH rates for mid-to-senior enlisted members due to types of 
housing they choose to reside in compared to the type of housing 
associated with their pay grades which determines their BAH level.)
    The Coast Guard is conducting an assessment of its housing needs 
that includes a housing market survey to determine availability of 
rental housing in lieu of Government-owned housing and FRA understands 
that this report on housing will be available at the end of May 2012, 
and that the Coast Guard has diverted $8.8 million from other programs 
to be used for housing needs.

                               CHILD CARE

    The availability and accessibility of affordable child care is a 
very important quality of life issue for Coast Guard personnel and 
their families. The Coast Guard operates nine child development centers 
(CDCs) that operate under the same standards as similar DOD facilities. 
In addition, a child care subsidy program allows members affordable 
access to private sector child care centers, and whenever possible 
access to DOD facilities.
    High-cost child care can often be attributed to the fact that most 
of the duty locations preclude access to DOD and Coast Guard CDCs. The 
Coast Guard continues to explore ways to assist with child care costs 
for members in remote, high-cost areas and FRA supports these efforts. 
Authorization and appropriations to support access to child care plus 
updates and enhancements are equally important. The FRA agrees with 
Rep. Frank LoBiondo, Chairman of the House Coast Guard and Maritime 
Subcommittee, who does not believe there is Coast Guard parity with DOD 
in terms of child care and housing.

                              END STRENGTH

    ``For the third consecutive year the Coast Guard will screen 
hundreds of E-5 through E-9 personnel to reduce its enlisted force by 
861 coastguardsmen by June 2012.\1\'' The involuntary retirement 
screening by a enlisted review board is focused of enlisted personnel 
with 20 or more years of service.
---------------------------------------------------------------------------
    \1\ Navy Times, Feb., 13, 2012, p. 32, Coasties Face Retirement 
Screening, Sam Fellman.
---------------------------------------------------------------------------
    The fiscal year 2013 Coast Guard budget request reduces Coast Guard 
end strength by 1,000. This includes the elimination of 222 positions 
from Coast Guard headquarters and reductions to the recruiting program. 
Reduced re-enlistment bonuses are also proposed.
    The association also notes that the authorized Coast Guard Reserve 
end strength is 10,000, however only 8,100 Reserve personnel are funded 
and the level has remained unchanged for a number of years. FRA is 
concerned that budget-driven, vice mission related cuts create 
inadequate end strength that further stresses Coast Guard personnel and 
their families. Repeated deployments for Active Duty personnel and 
increased reliance on Reserve personnel are associated results. 
Although the fiscal year 2013 budget mandates an authorized end 
strength reduction, there is no corresponding reduction in Coast Guard 
operational demands. End strength must be adequate to meet operational 
commitments that limit lengths of deployments and allow sufficient 
dwell time between deployments. As Admiral Papp noted in his recent 
State of the Coast Guard address, ``We will not allow our service to 
become a hollow operational force.''

                         YELLOW RIBBON PROGRAM

    The Coast Guard in 2011 established a Yellow Ribbon Program, in 
partnership with DOD, to enable more than 1,400 deploying 
coastguardsmen and their families to connect with resources before, 
during, and after deployment. Family support is critical to ensure 
there are no unnecessary family problems to distract from duties and 
demands of deployment, and adequate resources are essential to 
sustaining this important program.

                               CONCLUSION

    Madame Chairman, the FRA appreciates the opportunity to submit its 
views for the record on pay, healthcare, and other programs important 
to Coast Guard personnel.
    The association salutes you, the ranking member, and the other 
members of this distinguished subcommittee and your staff for effective 
oversight of our Nation's all-important fifth Armed Force, and for your 
untiring commitment to the men and women serving so proudly in our 
United States Coast Guard.

                                THE FRA

    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving Active Duty, Reserves, retired, and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
congressionally chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help. In 2007, FRA was selected for full membership on the National 
Veterans' Day Committee.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of Active Duty, but less than 30 
years for retirement purposes.
    FRA's mission is to act as the premier ``watch dog'' organization 
on Capitol Hill in maintaining and improving the quality of life for 
Sea Service personnel and their families. The association also sponsors 
a National Americanism Essay Program and other recognition and relief 
programs. In addition, the FRA Education Foundation oversees the 
association's scholarship program that presented awards totaling over 
$120,000 to deserving students last year.
    FRA sponsors the annual Coast Guard Enlisted Persons of the Year 
program and hosts the annual U.S. Coast Guard Caucus Breakfast on 
Capitol Hill each year to recognize Caucus members and increase 
awareness about the service's various missions and the work of Coast 
Guard personnel.
    The association is also a founding member and active participant in 
The Military Coalition (TMC), a 34-member consortium of military and 
veteran's organizations.

             CERTIFICATION OF NON-RECEIPT OF FEDERAL FUNDS

    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has not received any Federal grant or contract during the 
current fiscal year or either of the 2 previous fiscal years.
                 Master Chief Joseph L. Barnes, USN (Ret.),
                                       National Executive Director.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives

                          INTEREST OF THE IME

    The Institute of Makers of Explosives (IME) is the safety and 
security association of the commercial explosives industry. Commercial 
explosives underpin the economy. They are essential to energy 
production, construction, demolition, and the manufacture of any metal/
mineral product. Explosives are transported and used in every State. 
The ability to manufacture, transport, distribute, and use these 
products safely and securely is critical to this industry.
    The Infrastructure Security Compliance Division (ISCD) is standing 
up two programs that affect our membership--the Chemical Facility Anti-
Terrorism Standards (CFATS) program and the recently proposed Ammonium 
Nitrate Security program (ANSP). Some of our members are regulated 
under CFATS, and all will be regulated under the ANSP.
    Ensuring the security of commercial explosives and precursor 
materials against unauthorized access and use has been a priority of 
IME members long before the events of 9/11. As proof of our success, 
less than 2 percent of destructive explosives devices used in bombings 
and attempted bombings in this country are filled with commercial 
explosives.\1\
---------------------------------------------------------------------------
    \1\ Bomb Center Data, the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF), 2006.
---------------------------------------------------------------------------
                              ISCD ISSUES

    CFATS.--Those in our industry affected by this program and been 
working hard to meet deadlines for submissions of so-called ``top-
screens'', site vulnerability assessments, and site security plans 
(SSP). Our focus has been on identifying and ensuring that we have the 
means to meet the 18 specific risk-based performance standards 
(RBSP)\2\ required for final SSP approval. While concerns were voiced 
about the lack of progress in fully implementing the CFATS program, we 
believed a major factor in the delay was the lack of permanent 
authorization for the program. We have been proactively working to 
achieve that end. In the meantime, we appreciate the efforts of the 
subcommittee to be both the appropriator and authorizer for this 
program.
---------------------------------------------------------------------------
    \2\ RBPS are particularly appropriate in a security context because 
they provide individual facilities the flexibility to address their 
unique security challenges. Using performance standards rather than 
prescriptive standards also helps to increase the overall security of 
the sector by varying the security practices used by different chemical 
facilities. Security measures that differ from facility to facility 
means that each presents a new and unique problem for an adversary to 
solve.
---------------------------------------------------------------------------
    In the midst of these efforts, it was revealed that the program 
suffers from a number of internal management issues.\3\ Nothing in the 
internal review suggests that the legislative framework establishing 
CFATS is flawed. Rather, it is DHS' failure to provide adequate 
oversight and support that have resulted in program misdirection and 
implementation failures. Frankly, we applaud ISCD's new leadership that 
identified these issues and developed a plan to address them. Clearly, 
DHS has overstepped the role and responsibility Congress gave it. The 
result of this unfocused, mission creep is wasted human and financial 
capital. ISCD was not supposed to have law-enforcement powers. ISCD was 
not supposed to support a culture of cronyism, disrespect, and failed 
leadership. ISCD was not supposed to be staffed with individuals 
without the skills necessary to run a regulatory compliance program. 
ISCD was not supposed to mandate the means to achieve compliance with 
its performance standards, as it is attempting to do with the stand-up 
of a costly, duplicative personnel surety initiative.
---------------------------------------------------------------------------
    \3\ Management memorandum to Under Secretary Rand Beers from Penny 
Anderson, Director, and David Wulf, Deputy Director, ISCD, November 11, 
2011.
---------------------------------------------------------------------------
    We understand that permanent CFATS authorization may have to wait 
the outcome of DHS' ability to address the litany of pervasive internal 
management failures. During this period of re-evaluation, we cannot 
emphasize too strongly that this is not the time to entrust ISCD to 
implement a stand-alone personnel surety program. The CFATS personal 
surety program is identified in the November 2011 ISCD management 
memorandum as the agency's third highest programmatic priority. ISCD 
has taken the unorthodox approach of attempting to institute this 
program though an information collection request (ICR), rather than 
full notice and comment rulemaking as has been the approach used to 
establish every other Federal vetting program. This request is pending 
at the Office of Management and Budget (OMB) and the Department of 
Homeland Security (DHS) has predicted that it will soon be released.
    Under CFATS, RBPS 12 establishes a four-part background check for 
all facility personnel, and as appropriate, for unescorted visitors 
with access to restricted areas. The four-part background check 
standards are consistent with the other background check programs 
administered by DHS, including measures to verify identity, to check 
criminal history, to validate legal authorization to work, and to 
identify people with terrorist ties. The latter standard is met by a 
check against the terrorist screening database administered by the 
Federal Bureau of Investigation. ISCD's approach to personnel surety 
runs counter to direction from the White House, with industry support, 
that DHS consolidate and streamline duplicative vetting programs and 
eliminate redundant background checks.\4\ As proposed, ISCD refuses to 
reciprocally recognize other, more robust Federal vetting programs as 
sufficient to meet the background check requirements of CFATS, and ISCD 
does not allow regulated facilities the option to meet its personnel 
surety standards by exercising DHS' discretionary authority to open the 
Transportation Worker Identification Credential (TWIC) program to 
employees at CFATS facilities. ISCD's program will compel facilities to 
collect personal identifying information from a myriad of non-employees 
who are granted access to restricted areas--a liability many are 
unwilling to assume. It is expected that the site-by-site registration 
and access verification procedures will unnecessarily encumber facility 
access. Acknowledging these flaws, ISCD has said that it will ``slowly 
rollout'' the personal surety program with a promise to fix problems in 
the ramp up to full implementation after OMB gives clearance--basically 
turning initial implementation into a pilot program.
---------------------------------------------------------------------------
    \4\ This initiative has as its objective leveraging existing 
Federal security background checks to implement the principle of 
``enroll once, use many'' to reuse the information on individuals 
needing multiple access privileges. Transportation Security 
Administration's Transportation and Threat and Credentialing office is 
working on this goal through its Infrastructure Modernization program.
---------------------------------------------------------------------------
    These personal surety program issues have been identified to the 
authorizing committees of the House and Senate. Correspondingly, this 
subcommittee should bar ISCD from using any funds to implement this 
program until the authorizing committees have addressed these concerns. 
Ideally, ISCD would withdraw its ICR proposal and enable chemical 
facilities to satisfy the personal surety requirements of RBPS 12 by 
accepting evidence that individuals seeking access to restricted areas 
are appropriately vetted by existing Federal background check programs 
that are at least equivalent to the CFATS standards. Additionally, 
individuals needing this access should be allowed to apply for and be 
vetted under these existing programs. These accommodations would save 
Federal and private sector resources without any diminution in 
security.
    ANSP.--ISCD is also responsible for the ANSP. The November 2011 
management memo includes sections relevant to this program. The ANSP 
program, even more than CFATS, directly affects IME members.\5\ As 
unbelievable as it may seem, ISCD has proposed to institute a separate, 
unique chain-of-custody vetting program for those handling AN.\6\ All 
of the criticisms that have been raised about the personal surety 
program under CFATS could be repeated here and more. The ANSP vetting 
proposal would require the registration and face-to-face on-line 
verification of registration of anyone with possession of AN or 
transferring AN to another individual. This regulatory interpretation 
oversteps statutory authority authorizing the ANSP.\7\ This legislation 
restricts the registration and vetting requirements to those 
transferring ownership and possession. With this understanding, 
individuals engaged in the transportation of AN would not be covered, 
nor would individuals at facilities that do not have decisionmaking 
authority to direct the commerce of this product. The House Homeland 
Security Committee has reported legislation, H.R. 3116, that would 
exempt those engaged in the transportation of AN, as the security 
vetting of those individuals is handled by the Transportation Security 
Administration, and would limit vetting under the ANSP to those who 
individuals who both possess and transfer ownership of AN. As with 
CFATS, ISCD should allow individuals who possess and transfer ownership 
of AN to satisfy the vetting requirements of the ANSP through other 
equivalent Federal security vetting programs, such as the vetting 
program administered by the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives for those that possess commercial explosives. As we 
recommended for CFATS, no new authority should be granted ISCD until 
the agency gets its internal house in order.
---------------------------------------------------------------------------
    \5\ In the 1950s, the explosives industry migrated away from 
nitroglycerin-based to AN-based explosives for safety reasons. Today 
about 99 percent of explosives are AN-based. Currently, we estimate 
that the explosives industry uses over 2 million metric tons of TGAN 
(technical grade AN) annually, 70 percent of the total AN consumed in 
the United States. Almost all TGAN is stored, transported, and used in 
bulk. The smallest unit of sale in the United States is 1-ton ``super 
sacks,'' not man-portable bags. Eighty percent of the AN received by 
our members is delivered by railcar (5 percent by barge and 15 percent 
by truck). For safety reasons, we estimate that we deliver 85 percent 
or more of AN directly to the end user where it is converted into 
explosive material. Of the 15 percent of AN prill that is manufactured 
into an explosive prior to delivery to the end user, about 90 percent 
is manufactured as ``ANFO.''
    \6\ 76 FR 46908 (August 3, 2011).
    \7\ 6 U.S.C. 488.
---------------------------------------------------------------------------
    We do agree with the Action Plan proposal to integrate into a 
single cadre ANSP and CFATS inspectors. Dual training inspectors to 
function interchangeably under both programs will optimize the use of 
these resources. We believe ISCD has the authority to do this 
administratively, though union issues may complicate the merger. 
Congress should monitor this situation.

                               CONCLUSION

    The commercial explosives industry has a long history of attention 
to the safety and security of the products that we produce. We look for 
opportunities to partner with DHS and ISCD to address shared concerns. 
On the matter of personnel vetting in both the CFATS and ANSP programs, 
we regret that ISCD has not yet been responsive to our suggestions to 
leverage existing equivalent Federal programs to accomplish this task. 
The cost to American taxpayers, industry, and the Government to stand 
up redundant vetting programs has not been justified. Thank you for 
your attention to these concerns.
            Respectfully submitted by,
                                            Cynthia Hilton,
                                          Executive Vice President.
                                 ______
                                 
  Prepared Statement of the National Emergency Management Association

                              INTRODUCTION

    Thank you for the opportunity to submit this statement for the 
record regarding the fiscal year 2012 budget for the Department of 
Homeland Security (DHS). As president of the National Emergency 
Management Association (NEMA) I represent the emergency management 
directors of all 50 States, territories, and the District of Columbia. 
Members of NEMA are responsible to the Governors for myriad 
responsibilities including emergency preparedness, homeland security, 
mitigation, response, and recovery activities for natural or terrorism-
related disasters.

                EMERGENCY MANAGEMENT PERFORMANCE GRANTS

    The highest priority for NEMA within the President's request is 
funding for the Emergency Management Performance Grants (EMPG). EMPG 
assists State and local governments in managing a variety of disasters 
and hazards providing the only source of Federal assistance to State 
and local government for all-hazards emergency management capacity 
building. Grantees utilize EMPG funds for personnel, planning, 
training, exercises, warning systems, public outreach, and other 
essential functions in establishing effective preparedness, mitigation, 
response, and recovery. This program is of considerable economic value 
to the Federal Government as all Federal funds are matched 50-50 by 
State and local governments. Such a matching requirement increases 
accountability and supplements the impact of valuable Federal dollars.
    This year, NEMA fully supports the President's requested funding 
level and House Appropriations Committee recommendation of $350 million 
for EMPG. We appreciate the resource constrained environment, but when 
compared to other grant programs, the 50-50 match allows EMPG to stand 
alone as a worthwhile investment of Federal funds. In many ways, EMPG 
offers a cost-savings by allowing States to manage disasters which 
would otherwise need to be addressed by the Federal Government.
    NEMA has taken the most significant step forward to date in 
attempting to measure the effectiveness of EMPG. For the past 2 years, 
NEMA has released ``Emergency Management Performance Grants: Providing 
Returns on a Nation's Investment.'' The report measures the 
effectiveness of funding provided EMPG in fiscal year 2010. It also 
ties individual State and local efforts into the far larger picture of 
overall preparedness by demonstrating how a truly national emergency 
management system is developed and supported.
    A copy of the report is available online at: [http://
www.nemaweb.org/
index.php?option=com_content&view=article&id=220&Itemid=402].

                    HOMELAND SECURITY GRANT PROGRAM

    Since the inception of the State Homeland Security Grant Program 
(SHSGP), NEMA has maintained support of these grants as critical 
resources to help State and local governments build and sustain 
capabilities to address the various threats and hazards they face. The 
time has come, however, to consider a better way forward in light of 
continuing budget cuts to these important programs. During the fiscal 
year 2012 budget discussions of last summer, the NEMA leadership 
decided on a new approach to the full suite of grants within the 
Federal Emergency Management Agency (FEMA) and the Department of 
Homeland Security (DHS). NEMA subsequently developed the Proposal for a 
Comprehensive Preparedness Grants Structure which has been previously 
submitted to your subcommittee for review.
    NEMA was pleased to see the administration also contribute to the 
dialogue of grant reform through the fiscal year 2013 budget proposal. 
While we were encouraged to see the administration's vision reflect 
many of our recommendations, NEMA strongly believes a continued 
dialogue with all stakeholders is necessary to ensure every voice is 
heard and every consideration given for the most effective approach to 
grants reform. We would suggest several aspects of the President's 
budget proposal require additional clarity and further analysis:
  --The current planning process must be upgraded to reflect the 
        maturation of our preparedness efforts in the past 10 years. A 
        truly comprehensive system must allow for each State and 
        locality to determine core capabilities, set priorities in a 
        flexible manner, and measure performance and effectiveness 
        regardless of available Federal funds.
  --Those cities traditionally categorized as ``tier 1'' in the Urban 
        Area Security Initiative (UASI) program should be directly 
        funded provided they also participate in the THIRA process and 
        comprehensive planning process. Furthermore, a process by which 
        other units of government such as transit and port authorities 
        or self-organized regions of governments such as other current 
        UASI participants can apply for funding should be outlined. 
        Giving direct funding without any requirement to work with or 
        support an overall State strategy, however, puts the State in 
        an untenable position as it continues to reward geographic 
        stovepipes and uncoordinated programs
  --The THIRA process must focus on State and local governments and 
        include consequences of loss in the analysis and provide the 
        analytical rigor for understanding and problem-solving for 
        complex issues. The system must also include the full range of 
        stakeholders including health, law enforcement, public works, 
        fire, land use, transportation, and the private sector. This 
        includes collaboration on planning, analysis, project 
        development, application review, and development of core 
        capabilities.
  --The administration's definition of ``regionalization'' in terms of 
        application review requires additional clarification. Such peer 
        review is best handled at the State level and should focus on 
        setting priorities for projects. Any national review should be 
        on the State priorities overall and not a micro review of 
        individual projects. Also, coordination of development of 
        specific national capabilities such as urban search and rescue 
        teams is necessary. NEMA addresses this issue through the 
        recommendation of a multi-disciplinary and multi-jurisdictional 
        committee comprised of stakeholders across the State to review 
        all grant applications.
      The review committee of Statewide stakeholders is critical to the 
        development of a governance structure which ensures all 
        partners and grantees to maintain a voice through a project-
        based grants process. The committee would also be responsible 
        for enabling the range of threats and hazards to be considered 
        across the full spectrum of State and local activities. Such a 
        committee promotes fairness, reduces the politicization of 
        grants, and allows a voice for every constituency.
  --Priorities and select projects for local governments, ports, and 
        other entities, or for those entities to work with each other 
        within each State and among the States on the highest value 
        projects cannot be dictated by Washington. The allocation 
        systems of the past pitted city against city and port against 
        port with very little consideration of the complex 
        relationships of our economic system. The NEMA proposal 
        recognizes and values these relationships. There must be a 
        marketplace of ideas where value is determined by collaboration 
        between applicants rather than cutthroat competition between 
        them with winners and losers.
  --NEMA suggests only a small amount of the total grant funding be 
        held by DHS for competitive pilot projects to spark innovation. 
        Competition at the project level cannot be calculated by 
        separate groups or reduced to subjective grading. Up to 5 
        percent of the funding should be utilized to support innovative 
        projects. The remainder of the funding from the investment 
        grant can then be devoted to project-based applications by 
        State and local grantees. This varies from the administration's 
        recommendation which continues to address grant funding through 
        stove-piped programs. By reducing layers of review that impede 
        the flexibility of the funding, an efficient and effective flow 
        of funding can be realized for State and local projects.
    Overall, the overarching principles and values remain at the heart 
of any grant reform. Few seem to disagree with the tenets of supporting 
PPD-8; building a culture of collaboration; the ability to be agile and 
adaptive to confront changing hazards; building and sustaining 
capabilities; encouraging innovation; providing full visibility to all 
stakeholders; and recognizing the interdependencies of our national 
systems. The importance of these principles and values highlight a 
critical point in any retrospective on homeland security grants. 
Regardless of our country's fiscal situation, physical security and 
economic security are not mutually exclusive and can be achieved with a 
more streamlined grant structure. Working with you and our stakeholder 
partners, we remain confident a prudent approach forward can be found.

                EMERGENCY MANAGEMENT ASSISTANCE COMPACT

    We appreciate your continued support for the Emergency Management 
Assistance Compact (EMAC). NEMA continues to support a budget line item 
for EMAC for $2 million so the program may continue providing critical 
mutual aid resources across the country.
    In fiscal year 2013, specific funding for investment into EMAC is 
needed to continue to build capabilities. For example, 26 emergency 
management personnel responded to the September 11, 2001, terrorist 
attacks. Conversely, over 66,000 personnel from a variety of 
disciplines deployed through EMAC to the gulf coast in response to 
Hurricanes Katrina and Rita and 12,279 personnel to Texas and Louisiana 
during Hurricanes Gustav and Ike. The 2009 spring flooding in North 
Dakota and Minnesota resulted in States deploying equipment, sandbags, 
and 1,029 personnel to North Dakota. In all, 727 National Guard 
personnel and 302 civilians were sent to assist. Last year, over 600 
personnel were deployed in response to the floods and tornados in 
Missouri, North Dakota, Nebraska, South Dakota, Mississippi, Alabama, 
and Tennessee.

   EMERGENCY MANAGEMENT AND HOMELAND SECURITY TRAINING AND EDUCATION

    Training and education opportunities stand as one of the most 
effective ways to ensure the continued professionalization of emergency 
management and homeland security personnel as well as to increase their 
abilities to best protect our Nation and communities. The two Federal 
Government programs representing the pedigree of these efforts are the 
Emergency Management Institute (EMI) and the Naval Postgraduate 
School's Center for Homeland Defense and Security (CHDS). Not only do 
these two institutions provide the ``gold standards'' within their 
respective professional education realms, they also provide leadership 
and share resources to support a collaborative effort among training 
and education efforts throughout the country.
    EMI directly supports the professional core competencies of 
emergency managers at the Federal, State, local, tribal, public, and 
private sectors. The Institute trains more than 2 million students 
annually with residential on-site programs, off-site programs in 
partnership with State and local emergency managers, and computer based 
E-learning. EMI has recently partnered with NEMA and the International 
Association of Emergency Managers to develop the National Emergency 
Management Academy. The Academy consists of five courses and provides a 
structured and progressive approach to acquire skills, knowledge, and 
abilities to meet career challenges in emergency management
    CHDS programs include a fully accredited master's degree program; 
executive education seminars for Governors, locally elected officials, 
and their senior department leaders; an Executive Leaders Program; a 
Fusion Center Leaders Program; a peer reviewed online academic journal; 
a university and agency partnership effort; and the world's largest 
online homeland security library. These endeavors by CHDS significantly 
advance the strategic and critical thinking abilities of emergency 
management and homeland security personnel in their daily 
responsibilities, policy deliberations, and relationships with senior 
leadership within their jurisdictions.
    NEMA supports the President's budget request of $17.8 million for 
EMI and the inclusion of language in the fiscal year 2013 
appropriations bill supporting the full funding of the Naval 
Postgraduate School's Center for Homeland Defense and Security (CHDS) 
by the Federal Emergency Management Agency (FEMA).

                               CONCLUSION

    Again, I appreciate the opportunity to address these issues 
critical to the emergency management community. This subcommittee 
regularly affirms support for ensuring preparedness for our Nation's 
vulnerabilities against all-hazards. As you develop the fiscal year 
2013 budget for the Department of Homeland Security, we encourage you 
to utilize our membership as a resource and continue efforts to build a 
strong and robust emergency management baseline in our country. 
Together, we will carry-on the initiatives so thoughtfully developed by 
this subcommittee over the years. I thank you for the opportunity to 
testify on behalf of NEMA and appreciate your continued partnership.
                                            Mr. Jim Mullen,
                                                   President, NEMA.
     Director, Washington Military Department Emergency Management 
                                                          Division.
                                 ______
                                 
      Prepared Statement of the National Treasury Employees Union

    Chairman Landrieu, Ranking Member Coats, distinguished members of 
the subcommittee; thank you for the opportunity to provide this 
testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) officers and trade enforcement 
specialists who are stationed at 331 land, sea, and air ports of entry 
(POEs) across the United States. CBP employees' mission is to protect 
the Nation's borders at the ports of entry from all threats while 
facilitating legitimate travel and trade. CBP trade compliance 
personnel enforce over 400 U.S. trade and tariff laws and regulations 
in order to ensure a fair and competitive trade environment pursuant to 
existing international agreements and treaties, as well as stemming the 
flow of illegal contraband such as child pornography, illegal arms, 
weapons of mass destruction, and laundered money. CBP is also a revenue 
collection agency, processing approximately $2 trillion of imports--28 
million trade entries a year--at the POEs and collecting more than $32 
billion in revenue for the U.S. Government in fiscal year 2010.

                   CBP STAFFING AT THE PORTS OF ENTRY

    There is perhaps no greater roadblock to legitimate trade and 
travel efficiency than the lack of sufficient staff at the ports. 
Understaffed ports lead to long delays in our commercial lanes as cargo 
waits to enter U.S. commerce.
    Those delays result in real losses to the U.S. economy. According 
to a draft report prepared by the Department of Commerce, border delays 
in 2008 cost the U.S. economy nearly 26,000 jobs and $6 billion in 
output, $1.4 billion in wages, and $600 million in tax revenues 
annually. According to the same report, by 2017, average wait times 
could increase to nearly 100 minutes, costing the United States more 
than 54,000 jobs and $12 billion in output, $3 billion in wages, and 
$1.2 billion in tax revenues. The cumulative loss in output due to 
border delays over the next 10 years is estimated to be $86 billion.
    More than 50 million Americans work for companies that engage in 
international trade, according to the U.S. Department of the Treasury. 
If Congress is serious about job creation, then Congress should support 
enhancing U.S. trade and travel by mitigating wait times at the ports 
and enhancing trade enforcement by increasing CBP security and 
commercial operations staffing at the air, sea, and land ports of 
entry.
    In October 2009, the Southwest Border Task Force, created by 
Homeland Security Secretary Janet Napolitano, presented the results of 
its staffing and resources review in a draft report. This draft report 
recommended that the ``Federal Government should hire more Customs [and 
Border Protection] officers.'' The report echoes the finding of the 
Border-Facilitation Working Group. (The U.S.-Mexico Border Facilitation 
Working Group was created during the bilateral meeting between 
President George W. Bush and President Felipe Calderon held in Merida 
in March 2007.) ``In order to more optimally operate the various ports 
of entry, CBP needs to increase the number of CBP officers. According 
to its own estimate, the lack of human resources only for the San 
Ysidro POE is in the `hundreds' and the CBP officer need at all ports 
of entry located along the border with Mexico is in the `thousands.''' 
(``CBP: Challenges and Opportunities,'' a memo prepared by Armand 
Peschard-Sverdrup for Mexico's Ministry of the Economy: U.S.-Mexico 
Border Facilitation Working Group, January 2008, pages 1 and 2.)
    Despite these independent studies that state that CBP is 
understaffed at ports of entry by thousands of officers, the fiscal 
year 2013 budget provides only enough personnel funding to maintain the 
current number of CBP officer, CBP agriculture specialist, and CBP 
trade operations positions.
    NTEU urges the subcommittee to increase funding to hire additional 
CBP officers and agriculture specialists to sufficiently staff existing 
booths and traffic lanes at the air, sea, and land ports of entry.
    Also of concern to NTEU in the fiscal year 2013 budget request is 
the decrease of $21 million in funding for inspectional overtime at the 
air, land, and sea ports of entry. CBP states that ``this reduction 
will not impact operational staffing.''
    Overtime is essential when staffing levels are insufficient to 
ensure that inspectional duties can be fulfilled, that officers have 
sufficient back-up and that wait times are mitigated. In CBP's own 
words, ``Overtime allows OFO to schedule its personnel to cover key 
shifts with a smaller total personnel number.'' This is one reason that 
Congress authorized a dedicated funding source to pay for overtime-- 
customs user fees, pursuant to title 19, section 58c (f) of the U.S. 
Code. CBP collects user fees to recover certain costs incurred for 
processing, among other things, air and sea passengers, and various 
private and commercial land, sea, air, and rail carriers and shipments.
    The source of these user fees are commercial vessels, commercial 
vehicles, rail cars, private aircraft, private vessels, air passengers, 
sea passengers, cruise vessel passengers, dutiable mail, customs 
brokers, and barge/bulk carriers. These fees are deposited into the 
customs user fee account. User fees are designated by statute to pay 
for services provided to the user, such as inspectional overtime for 
passenger and commercial vehicle inspection during overtime shift 
hours. In addition, APHIS user fees and immigration user fees also fund 
``fee-related'' inspection costs.
    User fees have not been increased in years and some of these user 
fees cover only a portion of recoverable fee-related costs. For 
example, CBP collects the extraordinarily low fee of $437 at arrival of 
a commercial vessel to a port to recover personnel and other costs to 
process and inspect the vessel's crew and cargo. This fee, however, is 
capped at $5,955 per calendar year; no matter how many times the 
commercial vessel enters a port that year. This fee was last raised 
from $397 to $437 in 2007, but the cap has remained at $5,955 since 
1986. In 2010, CBP collected a total of $19.9 million in commercial 
vessel user fees, but the actual cost of commercial vessel inspections 
in fiscal year 2010 was $33.6 million.
    Another example of an extraordinarily low user fee is the fee paid 
by railcar owners of $8.25 per car at arrival for processing and 
inspection, but the fee is capped at $100 per railcar per calendar 
year. In 2010, CBP collected a total of $8.6 million in rail car user 
fees, but the actual cost of rail car inspections in fiscal year 2010 
was $18.9 million. And commercial vehicles pay only $5.50 per vehicle 
at arrival for processing and inspection, but the fee is capped at $100 
per vehicle per calendar year. In 2010, CBP collected a total of $13.7 
million in commercial vehicle user fees, but the actual cost of 
commercial vehicle inspections in fiscal year 2010 was over $113.7 
million.
    According to Government Accountability Office (GAO), (GAO-12-464T, 
page 11), the air passenger immigration inspection user fee should be 
reviewed and adjusted to fully recover the cost of the air passenger 
immigration inspection activities conducted by U.S. Customs and 
Immigration (ICE) and CBP. GAO estimated that fee collections available 
to ICE and CBP to pay for costs incurred in providing inspection 
services totaled about $600 million in fiscal year 2010, however, ``air 
passenger immigration fees collections did not fully cover CBP's costs 
in FY 2009 and FY 2010.'' NTEU urges Congress to allow CBP to better 
align air passenger inspection fee revenue with the costs of providing 
immigration inspection services and adjust the fee as needed so that 
collections are aligned with total inspection costs.
    Also, according to the GAO, (GAO-12-464T, page 7), CBP has a $639.4 
million unobligated balance in its customs user fee account. These 
unobligated balances have remained in CBP's customs user fee account 
for more than 10 years. NTEU urges the subcommittee to clarify the 
purposes for which the nearly $640 million in unobligated balances in 
the customs user fee account is available. NTEU supports legislative 
changes necessary to allow CBP to use this customs user fee unobligated 
balance to fully fund inspectional overtime in fiscal year 2013 and 
recover other costs incurred for processing and inspection of 
international travelers and trade.

               TRADE ENFORCEMENT AND COMPLIANCE STAFFING

    CBP has a dual mission of safeguarding our Nation's borders and 
ports as well as regulating and facilitating international trade. CBP 
personnel are responsible for collecting import duties and fees, and 
enforcing U.S. trade laws. In fiscal year 2010, CBP collected $32 
billion in revenue. Since CBP was established in March 2003, however, 
there has been no increase in CBP trade enforcement and compliance 
personnel and again, the fiscal year 2012 budget proposes no increase 
in FTEs for CBP trade operations personnel.
    In effect, there has been a CBP trade staffing freeze at March 2003 
levels and, as a result, CBP's revenue function has suffered. Recently, 
in response to an import specialists staffing shortage, CBP has 
implemented at certain ports a tariff sharing scheme resulting in 
certain ports being assigned only parts of the harmonized tariff 
schedule. This is a short-sighted solution that shortchanges taxpayers, 
trade compliant importers, and the Federal treasury.
    Also, the fiscal year 2013 budget requests $10 million for 
intellectual property rights (IPR) enforcement enhancement. The 
administration's request, however, includes no increase in CBP trade 
operations staff at the ports to implement this trade enforcement 
program.
    Lastly, the fiscal year 2013 budget request proposes to cut 21 
trade operations positions including 14 rulings and regulations 
staffers who are responsible for promulgating regulations and rulings, 
and providing policy and technical support to CBP, DHS, Treasury, 
Congress, and the importing community concerning the application of 
customs laws and regulations.
    NTEU urges the subcommittee not to cut CBP trade operations staff, 
but rather to increase funding to hire additional trade enforcement and 
compliance personnel, including import specialists, at the POEs to 
enhance trade revenue collection.

                     CBP CAREER LADDER PAY INCREASE

    NTEU commends the Department for increasing the journeyman pay for 
CBP officers and agriculture specialists. Many deserving CBP trade and 
security positions, however, were left out of this pay increase, which 
has significantly damaged morale.
    NTEU strongly supports extending this same career ladder increase 
to additional CBP positions, including CBP trade operations specialists 
and CBP seized property specialists. The journeyman pay level for the 
CBP technicians who perform important commercial trade and 
administration duties should also be increased from GS-7 to GS-9.

           RATIO OF CBP SUPERVISORS TO FRONTLINE CBP OFFICERS

    CBP is continuing to increase the number of supervisors when a much 
greater need exists for new front-line hires. In terms of real numbers, 
since CBP was created, the number of new managers has increased at a 
much higher rate than the number of new front-line CBP hires. According 
to GAO, between October 2003 and February 2006, CBP increased the 
number of managers by 17 percent, but increased the number of front-
line CBP officers by only 2 percent (See GAO-06-751R, page 11).
    The tremendous increase in CBP managers and supervisors has come at 
the expense of national security preparedness and front-line positions. 
Also, these highly paid management positions are straining the CBP 
budget.

                            RECOMMENDATIONS

    Sufficient CBP staffing must be provided to ensure security and 
mitigate prolonged wait times for both trade and travel at our Nation's 
ports of entry. Therefore, NTEU urges the subcommittee to include in 
its fiscal year 2013 DHS appropriations bill:
  --funding to significantly increase both port security and trade 
        enforcement staffing at the ports of entry; and
  --funding to extend enhanced pay and retirement recognition to 
        additional CBP personnel, including import and other commercial 
        operations specialists, CBP seized property specialists, and 
        CBP technicians.
    The more than 24,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs, and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously though 
our air, sea, and land ports. These men and women are deserving of more 
resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
subcommittee on their behalf.
                                         Colleen M. Kelley,
                                                National President.
                                 ______
                                 
Prepared Statement of the U.S. Council of the International Association 
                         of Emergency Managers

    Chairman Landrieu, Ranking Member Coats, and distinguished members 
of the subcommittee, I am Hui-Shan Walker, the emergency management 
coordinator for Hampton, Virginia. I have been a local government 
emergency manager for 12 years and before that worked for 5 years in 
the Red Cross' Disaster Services. I serve currently as the president of 
the U.S. Council of the International Association of Emergency Managers 
(IAEM-USA)\1\; and I am providing, on its behalf, this statement on 
critical budget and policy issues for the Federal Emergency Management 
Agency (FEMA).
---------------------------------------------------------------------------
    \1\ IAEM-USA is our Nation's largest association of emergency 
management professionals, with 5,000 members including emergency 
managers at the State and local government levels, tribal nations, the 
military, colleges and universities, private business, and the 
nonprofit sector. Most of our members are U.S. city and county 
emergency managers who perform the crucial function of coordinating and 
integrating the efforts at the local level to prepare for, mitigate the 
effects of, respond to, and recover from all types of disasters 
including terrorist attacks.
---------------------------------------------------------------------------
    Regarding FEMA's fiscal year 2013 budget, IAEM-USA supports funding 
the Emergency Management Performance Grant at $350 million and the 
Emergency Management Institute at $18,305,000. IAEM-USA opposes the 
termination of the Pre-Disaster Mitigation Program. We urge rejection 
of the National Preparedness Grant Program proposal until adequate 
details are available and key local stakeholders have had input. We 
deeply appreciate the support this subcommittee has provided to the 
emergency management community over the past few years, particularly 
your support for the Emergency Management Performance Grant Program 
(EMPG).

             EMERGENCY MANAGEMENT PERFORMANCE GRANTS (EMPG)

    IAEM-USA respectfully urges that the subcommittee approve the 
President's request of $350 million for EMPG, but continue to reject 
combining it with other accounts. EMPG is fundamentally different than 
the post-September 11, 2001, homeland security grants because of its 50 
percent Federal and 50 percent State and local matching requirements 
and established performance measures. It also pre-dates the homeland 
security grants by over 50 years. We further request that language be 
included continuing to make it clear the funding is all hazards and can 
be used for personnel. The program was authorized at $950 million for 
fiscal year 2012 in Public Law 110-53.
    EMPG, called ``the backbone of the Nation's emergency management 
system'' in an appropriations conference report, constitutes the only 
source of direct Federal funding for State and local governments to 
provide basic emergency coordination and planning capabilities for all 
hazards including those related to homeland security. The program is 
authorized by Public Law 110-53 for the Administrator of FEMA ``to make 
grants to States to assist State, local, and tribal governments in 
preparing for all hazards, as authorized by the Robert T. Stafford 
Disaster Relief and Emergency Assistance Act (42 U.S.C. 5121 et 
seq.).'' The legislation creating EMPG is purposefully broad to allow 
State, local, and tribal jurisdictions to focus their attention on 
customizing their capabilities. Therefore, it is important that FEMA 
guidance not be written to make ``one size fits all'' but instead to 
allow each local jurisdiction maximum flexibility in meeting the 
specific capability requirements. The program supports State and local 
initiatives for planning, training, exercise, mitigation, public 
education, as well as response and recovery coordination during actual 
events. EMPG succeeds in achieving its goal. As the 2011 IAEM-USA 
survey report, ``Emergency Management Performance Grant Funds: Return 
on Investment at the Local Level,'' demonstrated, EMPG funds contribute 
to bring about coordination, integration, and collaboration within 
local level jurisdictions across the country. The report on our fifth 
annual IAEM-USA survey of EMPG is available at: [http://www.iaem.com/
documents/IAEM.EMPG.ROI.Survey.Report3.5.12.pdf]. Since all disasters 
start and end at the local level, it is vital that capacity continue to 
be built at this level.
    Funding from EMPG has always been important to local government 
emergency management offices and is even more vital during the current 
economic downturn. The programs of most of our local emergency managers 
have faced, or will be facing, budget reductions resulting in reduced 
staffing, reduced training, reduced public outreach, and reduced 
support to volunteers. Some elected officials are considering reducing 
their commitment from a full-time emergency manager to a part-time 
emergency manager. Some jurisdictions are terminating the emergency 
management position altogether and simply adding the responsibilities 
associated with emergency management functions to pre-existing 
personnel in other departments. This has the effect of actually 
reducing emergency management services--and potentially preparedness--
in many areas of the country at a time when disasters and emergencies 
threaten more people and property than ever before. EMPG funding 
frequently makes a difference as to whether or not a qualified person 
is present to perform these duties in local jurisdictions. It should be 
noted that many local emergency management programs have historically 
provided significantly more than the 50 percent match that is required 
for their EMPG allocations.

                     EMERGENCY MANAGEMENT INSTITUTE

    We respectfully urge the subcommittee to increase the funding for 
the Emergency Management Institute (EMI) located at Emmitsburg, 
Maryland, by $500,000 to $18,305,000. The additional funds will support 
continued development and delivery of the National Emergency Management 
Academy foundation classes and support the development of training at 
the specialty and executive management levels, to include the 
enhancement of the field (G) and on-campus (E) courses. These programs 
support both the introductory training and continued professional 
development of Federal, State, local, and tribal emergency managers 
across the Nation. IAEM-USA urges you to again specifically designate 
funding for EMI in your subcommittee report and to require FEMA to 
include a specific request in the budget documents.
    EMI provides vitally needed training to State, local, and tribal 
government emergency managers through on-campus classes, a curriculum 
developed for field deployment and distance learning. This ``crown 
jewel'' of emergency management training and doctrine has made progress 
over the past 2 years with the funding support of Congress in the 
update and development of critically needed programs. Sustained funding 
for the continuance of existing programs and funds to complete the much 
needed executive management series of courses are vital to supporting 
local and tribal emergency management programs. For 2011-2012 EMI had 
more than 5.5 million active students; 39,559 classroom course 
completions, and 2,275,174 independent study program outline course 
completions.

                        PRE-DISASTER MITIGATION

    We urge the subcommittee to reject the proposal to terminate the 
Pre-Disaster Mitigation Program and provide a minimum of $35,500,000 as 
appropriated in fiscal year 2012. A congressionally mandated 
independent study by the Multi-Hazard Mitigation Council, a council of 
the National Institute of Building Sciences, showed that on the 
average, $1 spent by FEMA on hazard mitigation (actions to reduce 
disaster losses) provides the Nation about $4 in future benefits.

                  NATIONAL PREPAREDNESS GRANT PROGRAM

    The proposed National Preparedness Grant Program (NPGP) would 
consolidate 16 homeland security grant programs into a State-centric 
block and competitive grant program. The proposal raises concerns and 
questions for those at the local level. For example, the proposal 
ignores requirements of the 9/11 Act for 80 percent of the State 
Homeland Security Grant program to support local governments, the place 
where all disasters begin and end. In addition, the proposed use of a 
threat and hazard identification and risk assessment (THIRA) does not 
describe how local government officials, local emergency managers, and 
first responders will participate effectively and efficiently in the 
THIRA process.
    In response to the proposed NPGP, 12 national organizations of 
locals including elected officials, first responders, and emergency 
managers sent a letter outlining a set of core principles to guide 
grant program reform--principles which we would urge you to consider as 
you evaluate reform proposals. This letter is available at the 
following site: [http://www.iaem.com/Committees/GovernmentAffairs/
GovtAffairs.htm#CoalitionLetter21Mar2012]. The principles are as 
follows:
  --Increased Transparency.--It must be clear and understandable to the 
        Federal Government and the public how the States are 
        distributing funds, why they are making these decisions, and 
        where the funds are going.
  --Greater Local Involvement.--Local government officials, including 
        emergency managers and emergency response officials, know best 
        the threats and vulnerabilities in their areas. The THIRA 
        process must include the input of local elected and emergency 
        response officials, and FEMA must be able to audit States by 
        comparing local risk assessments to the State level THIRA. 
        Further, local governments should have the opportunity to 
        challenge a State THIRA that inadequately reflects their needs 
        or input.
  --Flexibility With Accountability.--Any changes to the existing 
        Federal grant programs should allow Federal funding to meet 
        individual local needs, and preparedness gaps as identified at 
        the local level. Effective but sometimes less politically 
        popular programs, like mitigation, must still receive funding.
  --Protect Local Funding.--Since event impact and response are 
        primarily local in nature, grant funding should support 
        primarily local prevention and preparedness efforts, as is the 
        case under the current program structure. It is important that 
        the vast majority of Federal homeland security grants continue 
        to fund local prevention and response activities, including 
        local emergency managers and first responders, and activities 
        that support their preparedness efforts.
  --Sustain Terrorism Prevention.--The current emphasis on supporting 
        law enforcement's terrorism prevention activities must be 
        maintained. The Federal grant funds should not be used to 
        support larger State bureaucracies at the expense of 
        operational counter terrorism preparedness, threat analysis, 
        and information-sharing activities.
  --Incentives for Innate Regionalization.--FEMA's proposal focuses on 
        States and multi-State regions (similar to the FEMA regions). 
        The homeland security grants must also support preparedness in 
        metropolitan intra-State and inter-State regions.

                      THE PATH FORWARD ON THE NPGP

    The details matter and there are still too many unanswered 
questions on how the NPGP would actually work. We recommend that the 
dialogue continue with DHS/FEMA, the Congress and all relevant State 
and local stakeholders. On April 24, a letter was sent by 12 national 
organizations of locals to Secretary Napolitano and Administrator 
Fugate suggesting that the Department not rush to make major changes 
this year but let the changes being implemented in the fiscal year 2012 
budget play out and be evaluated. This would give time for the 
Department to work with key local and State stakeholders and the 
Congress in a collaborative way to develop reforms which incorporate 
the successful elements of the homeland security programs and identify 
changes which need to be made.

                               CONCLUSION

    In conclusion, we urge the subcommittee to continue to build State 
and local emergency management capacity by funding EMPG at $350 million 
and to retain it as a separate account. We urge funding for the 
Emergency Management Institute be increased by $500,000 to $18,305,000 
and the amount be specifically mentioned in the subcommittee report. We 
urge that the Pre-Disaster Mitigation program not be terminated. We 
urge rejection of the NPGP proposal until more details are available 
and more collaboration with key stakeholders has occurred.
                                    Hui-Shan Walker, CEM ,
                                                         President.

</pre></body></html>
